March 8, 2021
Hon. Scott S. Harris, Clerk
Supreme Court of the United States
1 First Street, N.E.
Washington, D.C. 20543
Re:

Tollette v. Ford, No. 20-6876

Dear Mr. Harris:
Pursuant to this Court’s March 19, 2020 Order relating to the ongoing public
health concerns of COVID-19, Petitioner Leon Tollette respectfully requests this Court
delay distribution of his petition for writ of certiorari in Tollette v. Ford, No. 20-6876,
by 18 days.
Mr. Tollette, proceeding in forma pauperis, filed his Petition for Certiorari on
January 8, 2021. Counsel for Respondent filed a Brief in Opposition on March 1, 2021.
The petition is thus currently scheduled for distribution no earlier than March 15, 2021.
With an 18-day delay, distribution would occur no earlier than April 2, 2021. The
conference date would then be April 23, 2021. Mr. Tollette requests this additional time
to file a reply in support of his petition for writ of certiorari due to ongoing logistical
difficulties caused by the COVID-19 pandemic.
Counsel for Respondent does not oppose this request.
Sincerely,

Anna Arceneaux
Counsel of Record for Leon Tollette

